Audit Report
THE HOME CONFINEMENT PROGRAM
IN THE BUREAU OF PRISONS
Audit Report 96-09, (3/96)
TABLE OF CONTENTS
AUDIT RESULTS
FINDINGS AND RECOMMENDATIONS
FINDING 1. - WAYS TO DECREASE HOME
CONFINEMENT COSTS
Reasonableness of Costs
Collection of Subsistence
Reduction of Bills by
Collections
Recommendations
FINDING 2. - SYSTEMS TO MONITOR HOME
CONFINEES
BOP's Monitoring Requirements
and Our Test Results
Non-electronic Monitoring
Electronic Monitoring
Actions Taken on Violations
Recommendations
FINDING 3. - PROCEDURES TO PLACE
ELIGIBLE INMATES
Initiation of Action to
place CCC Residents on Home Confinement
STATEMENT ON THE MANAGEMENT
CONTROL STRUCTURE
STATEMENT ON COMPLIANCE WITH LAWS
AND REGULATIONS
SCHEDULE OF DOLLAR RELATED FINDINGS
APPENDIX I - AUDIT SCOPE AND METHODOLOGY
APPENDIX II - DAILY COST OF HOME
CONFINEMENT PER INMATE
APPENDIX III - BOP
REQUIREMENTS FOR NON-ELECTRONIC MONITORING BY CCCs
APPENDIX IV - BOP
REQUIREMENTS FOR ELECTRONIC MONITORING
APPENDIX V - REFERRAL
PROCEDURES OF CCCs
APPENDIX VI - CCC OCCUPANCY
RATES AND HOME CONFINEMENT PLACEMENTS
APPENDIX VII - BOP RESPONSE
TO THE DRAFT REPORT
APPENDIX VIII - OIG, AUDIT
DIVISION, ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE
REPORT
AUDIT RESULTS
The Bureau of Prisons' (BOP) Home Confinement Program allows
federal inmates to live at home and work at gainful employment
while remaining in official detention status. To participate,
inmates must be within the last 6 months or 10 percent of their
sentence (except Intensive Confinement Center cases) [ Intensive
confinement is a specialized program for first time offenders,
for which a longer stay on home confinement is permitted. ] and
not require the full range of services provided by Community
Corrections Centers (CCCs). [ The results of
our audit on BOP's community corrections center program are
contained in Report Number 96-08, The Community Corrections
Center Program in the Bureau of Prisons.] Our audit scope and
methodology are contained in Appendix I.
In BOP's Headquarters, the Community Corrections and Detention
Division is responsible for policies and procedures related to
the Home Confinement Program. In each of the six BOP regional
offices, the Community Corrections Regional Administrator is
responsible for community corrections, contract confinement, and
detention services. The Regional Administrators also manage 13
Management Center Administrators and the activities of 32 BOP
Community Corrections Management Offices throughout the United
States. Each BOP Community Corrections Management Office
supervises several CCCs.
The Administrative Office of the United States Courts (AOUSC)
supports the operations of probation offices located in each of
the 94 Federal judicial districts.
Home confinement is a part of the overall Community
Corrections Program. The program began in 1988; as of February
28, 1995 there were 1,170 offenders participating in the program.
About 140 of these offenders were supervised by probation
offices. The remaining offenders were supervised by CCCs. The
goal of the Community Corrections Program is to provide federal
prison inmates a transition back to the communities where they
will live upon release from federal custody. Home confinement
uses community supervision with electronic or other types of
monitoring as an alternative to incarceration. Inmates are
generally referred from institutions and normally spend time in a
CCC before placement on home confinement. The amount of time
spent in CCCs varies among individuals and depends on their
adjustment to the community.
Most home confinees supervised by CCCs are monitored by
telephone and home visits by CCC staff. However, some CCCs opt to
use electronic monitoring to supervise home confinees. CCCs are
required to offer inmates job counseling, academic and vocational
training, family reconciliation services, access to substance
abuse programs, and community adjustment services.
The AOUSC has its own home confinement program, monitoring
offenders who are sentenced directly to home confinement without
serving prison time. Since the AOUSC has probation offices
located in every judicial district, the BOP entered into a
Memorandum of Understanding (MOU) with AOUSC to obtain monitoring
of home confinees at locations where BOP CCCs are inaccessible.
All BOP home confinees supervised by probation offices are
electronically monitored. Also, probation offices were supposed
to provide supervision and drug testing services for BOP home
confinees.
The electronic monitoring system used by probation offices
consists of a transmitter worn by the home confinee. The signal
is received by a receiver dialer, a unit installed at the
monitored location (connected to the inmate's telephone), which
notifies the central computer of a change in the inmate's status
when the inmate comes within or goes out of range of the unit.
The central computer contains the inmate's schedule and, when
notified of a change in the inmate's status, compares the time of
the change with the schedule to determine if the break in contact
is authorized. The central computer also receives a signal if the
inmate tampers with the equipment.
The BOP pays CCCs half of the per diem rate for residents. For
example, if the CCC receives $40 a day from the BOP for a
resident, it will only receive $20 a day for a home confinee.
Participants in the Program, with exceptions for unusual
circumstances, are required to pay 25 percent of their weekly
gross income. However, a participant's contribution cannot exceed
the CCC's reimbursement rate for home confinement.
In FY 1995, the BOP reimbursed the AOUSC about $5 a day for
electronic monitoring costs and $12 a day for personnel costs to
supervise home confinees as agreed in the MOU between the two
agencies.
The BOP accounted for CCC and home confinement costs jointly.
For FY 1994, we estimated the cost of the home confinement
program to be $6.7 million, plus about $270,000 paid to the AOUSC
for electronic monitoring.
Overall, the program was operating satisfactorily within
reasonable costs. We followed up on deficiencies reported in
prior audit reports and found that the BOP had taken corrective
action. However, the BOP can operate the program more efficiently
by:
 implementing electronic monitoring for all home
confinees ($1 million);
 increasing subsistence collections from BOP home
confinees monitored by the AOUSC and ensuring that future
bills from the AOUSC are reduced by subsistence collections;
and
 ensuring that CCCs and the AOUSC comply with the
BOP's monitoring requirements, and clearly defining the BOP's
monitoring requirements in the MOU with the AOUSC.
FINDINGS AND RECOMMENDATIONS
FINDING 1. - WAYS TO
DECREASE HOME CONFINEMENT COSTS
In our judgment, electronic monitoring of home confinees is a
cost effective alternative to CCC incarceration and the manual
monitoring of home confinees as practiced by most CCCs. The BOP
can reduce the $6.7 million program costs by: (1) implementing
electronic monitoring for all home confinees ($1 million), (2)
collecting subsistence from BOP home confinees monitored by the
AOUSC, and (3) ensuring that bills from the AOUSC are reduced by
these subsistence collections.
Reasonableness of Costs
For FY 1994, the BOP's reported cost to house an inmate in a
CCC ranged from $23 to $130, averaging $42 per day. [ The
$42 is the average of the contract amount paid by the BOP to CCCs
per inmate per day. The net cost per day to the BOP is $42 plus
$3 BOP overhead per inmate per day, less an average of $6
subsistence collections per inmate per day, for a net cost of
$39.] The BOP paid CCCs 50 percent of this rate, an average of
$21 per day, to monitor home confinees. Through the MOU, the BOP
paid the AOUSC $17 per day to electronically monitor home
confinees, generally in locations where CCCs were inaccessible.
The AOUSC used electronic monitoring for almost all its home
confinees. In our judgment, the BOP could lower its costs by
monitoring all home confinees electronically (See Appendix II).
By applying the $4 difference [ Our savings
are based on the $4 per day per inmate difference. This amount is
the same whether the gross or net amounts are used.] between the
AOUSC's $17 cost and CCC's $21 cost to the average daily
population on home confinement monitored by CCCs for FY 1994, [
The average daily population on home confinement
monitored by CCCs was 752 for FY 1994.] we estimate the BOP could
save about $1 million by electronically monitoring all home
confinees. The actual savings would depend on the cost at which
the BOP could obtain electronic monitoring services. Further,
Directors at CCCs using electronic monitoring stated that it was
cost effective and reduced staff workload.
Collection of Subsistence
The BOP requires Community Corrections Centers to collect 25
percent of each resident's weekly gross income to defray program
costs. However, the weekly subsistence collected should not
exceed the per diem rate established for home confinement times 7
days.
During our audit period, the BOP home confinees monitored by
the AOUSC paid about $5 a day, the contract cost for electronic
monitoring. However, home confinees monitored by CCCs were
generally required to pay the full 25 percent of their gross
weekly income.
The BOP's subsistence collections nationwide averaged $6 per
day, $1 above the amount collected by the AOUSC. Based on an
average of 140 BOP home confinees, the number monitored by the
AOUSC on February 28, 1995, we estimated the BOP could save about
$51,000 annually if an additional $1 was collected daily from the
home confinees monitored by the AOUSC.
Reduction of Bills by
Collections
Under the terms of the MOU, the BOP reimbursed the AOUSC for
the contract costs of electronic monitoring services. The AOUSC
was supposed to reduce bills to the BOP by subsistence collected
from BOP home confinees under their supervision. The AOUSC's
contractor collected the contract cost of $5 per day from
offenders electronically monitored and reduced its bill to the
AOUSC by the amount collected; however, the AOUSC did not reduce
its bills to the BOP.
We did not make a recommendation to recover funds because the
AOUSC did not bill the BOP for the full amount of electronic
monitoring services provided during FYs 1994 and 1995. We
estimated the cost for the services which were provided by the
AOUSC but not billed to the BOP were greater than the amount
which was not reduced from the billing. However, the BOP needs to
ensure that future bills from AOUSC have been reduced by
subsistence collections before they are paid.
Recommendations
We recommend the Director, BOP:
1. Implement a pilot project to determine if electronic
monitoring of all home confinees would be more cost effective
than non-electronic monitoring.
2. Ensure the maximum allowable subsistence is collected from
BOP home confinees monitored by the AOUSC.
3. Ensure that future bills from the AOUSC are reduced by
collections from BOP home confinees.
FINDING 2. - SYSTEMS TO
MONITOR HOME CONFINEES
Community Corrections Centers' staff generally completed the
requirements for monitoring home confinees. However, some CCCs'
staff did not always contact home confinees daily on a random
basis or conduct weekly residence and employment visits.
Additionally, BOP home confinees supervised by probation offices
were subject to less stringent monitoring standards than BOP's
home confinees supervised by CCCs. This occurred because the BOP
did not clearly define its requirements in the MOU with the
AOUSC.
Monitoring does not guarantee that violations will not occur.
However, in our judgment, if home confinees are not monitored as
required, the risk that program violations such as drug use,
missed curfew, or other offenses could go undetected increases
significantly.
BOP's Monitoring
Requirements and Our Test Results
To determine whether the BOP's monitoring requirements were
met, we reviewed 79 home confinee files at 11 CCCs using
non-electronic monitoring, 4 home confinee files at a CCC using
electronic monitoring, and 22 home confinee files at 4 probation
offices. Our test results are summarized in Appendix III for
non-electronic monitoring and Appendix IV for electronic
monitoring. Most CCCs use non-electronic monitoring methods to
supervise home confinees. Electronically monitored BOP home
confinees are generally monitored by probation offices; however,
some CCCs use electronic monitoring because it is cost effective
and reduces staff workload.
Non-electronic monitoring
According to BOP requirements, Community Corrections Centers'
staff should: (1) telephonically contact the resident at random
hours each day at home or at work or both; (2) visit residents on
home confinement at their homes and at their places of employment
at least once per week; (3) ensure residents on home confinement
return to the CCC twice weekly for progress reviews, counseling,
and monthly urine testing; (4) maintain documentation of all
contacts with residents on home confinement; and (5) notify the
BOP Community Corrections Manager immediately of any escape,
misconduct, or failure of a resident on home confinement to
comply with the signed Conditions of Home Confinement.
Of the 11 CCCs using non-electronic monitoring:
 3 did not contact home confinees at least once
daily;
 6 did not contact home confinees randomly; they
generally contacted home confinees at about the same time;
and
 6 did not visit home confinees weekly at their
homes and work sites.
All other requirements were either met or not applicable.
Electronic monitoring
Community Corrections Centers were required to: (1)
visit the home confinee's residence and place of employment
monthly; (2) test for drugs once per month; (3) have one
in-person contact per week; (4) document all contacts which shall
include visual inspection of monitoring equipment, verification
of employment, residence, and participation in any other required
program or treatment activity; and (5) review home confinees'
telephone bills monthly to detect call forwarding. Call
forwarding could allow a home confinee to move the receiver
dialer to an unauthorized location and transfer calls there.
Staff at the one CCC we visited which used electronic
monitoring did not visually inspect monitoring equipment at each
contact. They stated that they did not inspect the equipment
unless they were notified to do so by the monitoring company. All
other requirements were either met or were not applicable.
Probation offices, under the terms of the MOU, should
ensure: (1) all home confinees under their supervision are
monitored 24 hours a day, 7 days a week, and (2) probation
officers respond to all violations of the conditions of home
confinement. United States Probation contracted for electronic
monitoring services. When contractor staff were electronically
notified of a potential home confinement violation and could not
resolve the issue in 30 minutes, they had to notify the probation
officer.
One probation office did not monitor messages of potential
violations received over the weekend until the next workday. For
example, if the contractor received a "tampering"
message on a Saturday morning, they would leave a message (as
they have been instructed to do) on the probation office's
answering machine. A tampering message occurs when the
transmitter is tampered with, removed or jarred. The office did
not require the probation officer to listen to the message until
the next workday. Staff at AOUSC Headquarters stated that this
was probably an isolated incident, and that the officer handling
the caseload had retired.
The BOP did not clearly define its policies for monitoring
home confinees in the MOU with the AOUSC. In our judgment, all
home confinees should be subject to the same requirements.
Accordingly, we tested probation office's actions against the
BOP's requirements. Probation offices did not always: (1) test
for drugs at least once a month; (2) complete in-person contacts
once a week; (3) document verification of employment, residence,
and participation in required programs; (4) visually inspect
monitoring equipment at each in-person contact; or (5) review
home confinees' monthly telephone bill to detect call forwarding.
We performed on-site work at 2 CCCs and conducted a telephone
survey of the other 13 CCCs around the country which used
electronic monitoring. Staff at these CCCs stated that electronic
monitoring:
 provided better accountability for home confinees;
 was cost effective, although most had not done cost
studies; and
 reduced staff workload.
Disadvantages included age-related problems with the
monitoring equipment (1 site), rare systems crashes (1 site),
false alerts (1 site), and public misconception that electronic
monitoring prevents violations (false security) (1 site).
Actions Taken on
Violations
BOP Community Corrections Managers took appropriate
disciplinary actions for violations. At six BOP Community
Corrections Management Offices, home confinees were removed from
the program and returned to either the CCC or a secured facility
for 26 of the 27 violations identified. The Community Corrections
Manager deemed the remaining violation as minor, and allowed the
CCC staff to handle it informally. We agreed with this
assessment. We did not identify any home confinement program
violations at one office.
Recommendations
We recommend the Director, BOP:
4. Ensure that CCCs comply with the BOP's monitoring
requirements.
5. Clearly define the BOP's monitoring requirements in the MOU
with AOUSC.
FINDING 3. - PROCEDURES TO
PLACE ELIGIBLE INMATES
Although Directors at 5 of 12 CCCs indicated that low
occupancy rates at their CCCs have or could affect referrals to
home confinement, our testing indicated that Community
Corrections Centers generally referred inmates for home
confinement appropriately (See Appendix V). We reviewed files for
142 inmates who had been referred to home confinement. In our
judgment, 141 of the 142 inmates were referred appropriately. We
also reviewed files for 192 inmates who had not been referred to
home confinement. In our judgment, all 192 non-referrals were
appropriate. We identified non-systemic weaknesses as detailed
below.
Initiation of Action
to Place CCC Residents on Home Confinement
CCC staff have to refer inmates to home confinement, but the
CCCs are only reimbursed 50 percent of the daily rate for
residents placed on home confinement. In our judgment, this is a
conflict of interest. Further, the Statement of Work for CCC
contracts states that a CCC Director may recommend an inmate for
home confinement when the inmate will derive no further
significant benefit from continued CCC residence. In our
judgment, the statement "derive no further significant
benefit from continued CCC residence" was too broad,
allowing CCC staff to always justify the non-referral of an
inmate. However, we found no systemic effect from these two
conditions. As demonstrated in the graph at Appendix VI, the
overall trend for placements on home confinement approximated 20
percent, the BOP's goal.
Title 18 United States Code, Section 3624(c), allowed the BOP
to place inmates who were within the last 6 months or 10 percent
of their sentence, whichever was less, on home confinement. In
addition to this legal requirement, the BOP established the
following criteria before an inmate can be placed on home
confinement: (1) the resident will derive no further significant
benefits from continued CCC residence; (2) the resident has
developed a release plan that has been approved by the
supervising probation officer; and (3) the resident is not
considered to present a substantial threat to the community or
safety of others. Inmates convicted of crimes of violence and
sexual offenses were not eligible for home confinement.
Procedures at the BOP's Montgomery, El Paso, and Phoenix
Community Corrections Management Offices were adequate to
identify inmates eligible for home confinement. For example, the
Community Corrections Manager at El Paso obtained explanations
from CCC staff as to why inmates who had been in the CCC for a
reasonable length of time were not on home confinement.
Staff at the Detroit and Miami offices did not regularly
review the status of potential home confinees. Staff at the
Atlanta office reviewed inmate data, but did not follow up with
CCCs to see if inmates were placed.
In Baltimore, 6 of 10 cases reviewed were properly excluded,
but 4 were not. In our judgment, these four non-referrals were
not significant enough to warrant an audit recommendation.
Staff at ten CCCs generally reviewed case files periodically
to monitor the progress of inmates and to determine if they were
ready for home confinement. For example, weekly team meetings
were held at one CCC during which the program director and the
case managers discussed who was eligible for home confinement.
The remaining two CCCs did not have internal systems, and relied
on the BOP to identify eligible inmates.
Actions taken by BOP Community Corrections Offices and CCCs
prior to referral were generally satisfactory. However, 1 of the
142 inmate files we reviewed was for a CCC resident who was
placed on home confinement although he was convicted of arson and
had an alleged history of violence. According to the CCC
Director, the inmate met the criteria and was not a threat to the
community.
All CCCs provided reasonable explanations for the non-referral
of 192 sampled inmates who were legally eligible for home
confinement. Some reasons given were: no permanent residence,
loss of job, history of repeated substance abuse, hostility, and
disrespect.
STATEMENT
ON THE MANAGEMENT CONTROL STRUCTURE
In planning and performing the audit of the BOP's Home
Confinement Program, we considered the BOP's management control
structure for the purpose of determining our auditing procedures.
This evaluation was not made for the purpose of providing
assurance on the BOP management control structure as a whole.
However, we noted certain matters that we consider to be
reportable conditions under government auditing standards.
Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation
of the management control structure that, in our judgement, could
adversely affect the ability of the BOP to effectively manage its
Home Confinement Program operations. We identified weaknesses in
the systems for collecting subsistence from home confinees
monitored by the AOUSC and the payment of bills received from the
AOUSC (Pages 4 and 5) and the monitoring of home confinees by
CCCs and the AOUSC (pages 6, 7, and 8).
Because we are not expressing an opinion on the BOP's
management control structure as a whole, this statement is
intended solely for the information and use of the BOP management
in monitoring the Program. This restriction is not intended to
limit the distribution of this report, which is a matter of
public record.
STATEMENT ON COMPLIANCE
WITH LAWS AND REGULATIONS
We have audited the BOP's Home Confinement Program. The period
covered by the audit was FY 1994 through the second quarter FY
1995, and included a review of selected activities and
transactions. The audit was conducted in accordance with
government auditing standards.
In connection with the audit, and as required by the
standards, we tested transactions and records to obtain
reasonable assurance concerning the agency's compliance with laws
and regulations that, if not complied with, we believe would have
a material effect on operations. Compliance with laws and
regulations applicable to the Program is the responsibility of
BOP management.
An audit includes examining, on a test basis, evidence about
laws and regulations. The specific regulation for which we
conducted tests was found in Title 18, United States Code,
Section 3624(c), Release of a prisoner; Pre-release custody. For
the items tested, we found no material or immaterial instances of
noncompliance with the above regulation.
With respect to those transactions not tested, nothing came to
our attention that caused us to believe that BOP management was
not in compliance with the regulation cited above.
SCHEDULE OF DOLLAR
RELATED FINDINGS
FUNDS TO BETTER USE [ FUNDS
TO BETTER USE are defined as future funds that could be
used more efficiently if management took actions to
implement and complete audit recommendations.]
AMOUNT
PAGE
Future savings by optimizing the use of
electronic monitoring for all home confinees
$1,000,000
4
ENHANCED REVENUE
[ ENHANCED REVENUE is defined as
future annual revenues that can be obtained from
management action on audit recommendations. Examples
include, but are not limited to: (1) establishing new
fees, (2) increasing existing fees, (3) collection of
current fees or debts owed, or (4) improving the value of
assets prior to their sale. ]
Failure to collect allowable subsistence
from BOP home confinees monitored by the AOUSC.
$ 51,000
5
APPENDIX I
AUDIT SCOPE AND METHODOLOGY
Our audit objectives were to: (1) determine ways to decrease
the costs of the home confinement program, (2) assess the
adequacy of systems used to monitor home confinees, and (3)
evaluate the criteria for placing individuals on home
confinement. Our audit focused on operations for FY 1994 through
the second quarter of FY 1995. We conducted work at BOP
Headquarters and the AOUSC in Washington, DC, and at the
following locations:
BOP Community Corrections Management Offices: Atlanta, GA;
Baltimore, MD; Detroit, MI; El Paso, TX; Miami, FL;
Montgomery, AL; and Phoenix, AZ.
CCCs: Albuquerque, NM; Atlanta, GA (2 locations); Chicago,
IL; Grand Rapids, MI; Hutchins, TX; New York, NY; Miami, FL;
Mobile, AL; San Diego, CA; Tucson, AZ; and Washington, DC.
Probation offices: Atlanta, GA; Charlotte, NC; Houston,
TX; and Kansas City, MO.
We conducted the audit in accordance with government auditing
standards, and included such tests of program records as were
considered necessary.
To assess the adequacy of systems used to monitor home
confinees, we identified the BOP's requirements as found in the
Statement of Work for contractors, in the MOU with the AOUSC, and
other written procedures. We interviewed BOP Central Office and
AOUSC staff to ensure our understanding of these requirements. At
12 CCCs and 4 probation offices, we reviewed 105 case files and
records to determine if they complied with the BOP's monitoring
requirements. We tested 79 cases at eleven CCCs that monitored
home confinees non-electronically, 4 cases at a CCC that
monitored electronically, and 22 BOP cases monitored by probation
offices. We also reviewed case files for 27 violations identified
at 6 BOP Community Corrections Management Offices to determine
what actions were taken when the CCC or probation office reported
a violation of program rules. No violations were identified at
one BOP Community Corrections Management Office.
To evaluate the criteria for referring inmates for home
confinement, we examined 192 case files of inmates legally
eligible, but not referred for placement. We also examined 142
case files for inmates who were placed on home confinement to
determine if the Community Corrections Managers and CCCs had
taken proper action prior to placing the inmates on home
confinement. We interviewed staff at BOP Community Corrections
Management Offices to determine the procedures for processing
incoming referrals, and to obtain suggestions on possible
revisions to the referral policy. We also interviewed CCC
Directors to determine the effect of the CCC's occupancy rate on
decisions regarding referrals.
During the survey phase of our audit, we conducted limited
audit work at a CCC using electronic monitoring in Dania, FL. The
primary purpose of our work was to determine the CCC's
satisfaction with electronic monitoring. We also obtained
comments on electronic monitoring from staff at one CCC visited
during the verification phase of our audit. We later surveyed 13
CCCs to determine their satisfaction with electronic monitoring.
We also observed operations at AOUSC's contractor for electronic
monitoring services in Boulder, CO.
APPENDIX II
DAILY COST OF HOME CONFINEMENT PER INMATE
CCC Location
Reimbursement Rate for CCC
Residents
Home Confinement Reimbursement
Rate
Reimbursement to Probation For
Electronic Monitoring
Atlanta, GA
$40.00
$20.00
$17.48
Atlanta, GA
$42.80
$21.40
$17.48
Miami, FL
$37.30
$18.65
$17.48
Chicago, IL
$56.68
$28.34
$17.48
Grand Rapids, MI
$46.86
$23.43
$17.48
Hutchins, TX
$43.50
$21.75
$17.48
Albuquerque, NM
$40.08
$20.04
$17.48
New York, NY
$73.00
$36.50
$17.48
Washington, D.C.
$57.88
$28.94
$17.48
San Diego, CA
$55.50
$27.75
$17.48
Tucson, AZ
$46.76
$23.38
$17.48
Mobile, AL
$39.44
$19.72
$17.48
NOTE 1: Probation was
reimbursed the same rate for all BOP inmates under their
supervision, regardless of location.
#####